      Office of Inspector General




      April 26, 2007


      MEMORANDUM

      TO:                  USAID/West Bank and Gaza Mission Director, Howard Sumka

      FROM:                Regional Inspector General/Cairo, David H. Pritchard /s/

      SUBJECT:             Information on Status and Results of the First 90 Financial Audits of
                           USAID/West Bank and Gaza Activities in Accordance with the Statutory
                           Requirements of the Consolidated Appropriations Acts of 2003, 2004,
                           2005, and 2006
                           (Report No. 6-294-07-001-S)


      This memorandum transmits our final report on the status and results of financial audits
      of USAID/West Bank and Gaza activities in accordance with the statutory requirements
      of the Consolidated Appropriations Acts of 2003, 2004, 2005, and 2006. This is not an
      audit report, and the report does not contain suggestions or recommendations. In
      finalizing our report, we considered your comments on our draft report and have
      included your response in its entirety in Appendix II.




U.S. Agency for International Development
USAID Office Building
Plot 1/A Off Ellaselki Street
New Maadi
Cairo, Egypt
www.usaid.gov
BACKGROUND

The Consolidated Appropriations Resolution of 2003, the Consolidated Appropriations
Act of 2004, the Consolidated Appropriations Act of 2005, and the Foreign Operations,
Export Financing, and Related Programs Appropriations Act of 2006, included the
following requirement.

         The Administrator of the United States Agency for International
         Development shall ensure that Federal or non-Federal audits of all
         contractors and grantees, and significant subcontractors and subgrantees,
         under the West Bank and Gaza Program, are conducted at least on an
         annual basis.

To fulfill this requirement, each of these Acts says the USAID Office of Inspector General
may use up to $1 million of the funds appropriated for audits, inspections, and other
activities.

To help USAID meet its expanded audit requirements under the above legislation, the
Office of Inspector General has implemented a program to audit annually USAID’s
contractors and grantees, and significant subcontractors and subgrantees, that receive
USAID funding for the West Bank and Gaza Program. This is the third report issued for the
financial audit program. The Office of Inspector General issued the first report on the first
30 audit reports on March 28, 2005,1 and second report on the first 60 audit reports on
August 15, 2006.2

SURVEY OBJECTIVE
We conducted this survey as part of the Office of Inspector General’s audit plan to
answer the following question:

•	 What are the status and results of the first 90 financial audits of USAID/West Bank
   and Gaza activities in accordance with the statutory requirements of the
   Consolidated Appropriations Acts of 2003, 2004, 2005, and 2006?




1
  Audit Report No. 6-294-05-002-S, “Information on Status and Results of the First 30 Financial
Audits of USAID/West Bank and Gaza Activities in Accordance with the Statutory Requirements
of the Consolidated Appropriations Acts of 2003, 2004, and 2005.”
2
  Audit Report No. 6-294-06-002-S, “Information on Status and Results of the First 60 Financial
Audits of USAID/West Bank and Gaza Activities in Accordance with the Statutory Requirements
of the Appropriations Acts of 2003, 2004, 2005, and 2006.”



                                                                                             2
DISCUSSION

As of March 11, 2007, USAID had procured 167 financial audits, and the Office of Inspector
General had released 90 final audit reports. Appendix I provides a list of these 90 final reports.
As required by the legislation, USAID is procuring additional audits in fiscal year 2007.

Questioned Costs
As shown in Table 1, the first 90 financial audits resulted in $4.8 million in questioned costs out
of $209 million audited. Of the 90 audits, the first 30 audits resulted in questioned costs of $2.0
million, the next 30 audits resulted in questioned costs of $848 thousand while the last 30 audits
resulted in $1.9 million in questioned costs. The overall costs audited increased from $50
million on the first 30 to $84 million for the second 30 audits; however, it decreased from $84
million on the second 30 audits to $74 million for the third 30 audits.

                                  Table 1: Questioned Costs
                      Unsupported3       Ineligible4
      Reports          Questioned       Questioned      Questioned       Audited
      Issued             Costs             Costs            Costs         Costs
          1-30             $232,742        $1,779,369       $2,012,111  $50,490,616
         31-60             $303,664           $544,329       $847,993   $84,367,802
         61-90               $18,602       $1,914,737       $1,933,339  $74,093,312
        TOTAL              $555,008        $4,238,435       $4,793,443 $208,951,730

The overall $4.8 million in questioned costs (from 50 of the 90 audit reports) were 2.3 percent of
the total audited costs. The questioned costs represent 4.0 percent for the first 30 audits, 1.0
percent for the second 30 audits, and 2.6 percent for the third 30 audits as shown in Chart 1
below.
                Chart 1: Questioned Costs as a Percentage of Audited Costs

                       Questioned Costs as Percentage of Audited Cost

               5.0%
                           4.0%
               4.0%

               3.0%                                       2.6%
                                                                         2.3%
               2.0%
                                          1.0%
               1.0%

               0.0%
                           1-30           31-60          61-90            1-90
                                             Reports Issued



3
  Unsupported questioned costs are costs which lacked adequate documentation or required prior 

approvals or authorizations. 

4
  Ineligible questioned costs are costs that were unreasonable, prohibited by the agreements or

applicable laws and regulations, or were not program related. 


                                                                                                 3
Reportable Conditions in Internal Control and
Material Instances of Noncompliance
In addition to questioned costs, the 90 financial audits disclosed 52 reportable conditions in
internal control5 and 114 material instances of noncompliance6 with agreement terms and
applicable laws and regulations. Five of the 90 audits disclosed 35 of the 52 reportable
conditions, and 11 of the 90 financial audits disclosed 54 of the 114 material instances of
noncompliance. As shown in Table 2, the first 30 audits reported 73 reportable conditions and
instances of noncompliance, the second 30 audits reported 28, while the third 30 audits
reported 65.

    Table 2: Number of Reportable Conditions in Internal Control and Material Instances of 

                                       Noncompliance 

             Reports     Reportable Conditions Material Instances of
             Issued        in Internal Control        Noncompliance          Total
                    1-30            28                      45                 73
                  31-60              5                      23                 28
                  61-90             19                      46                 65
                   Total            52                     114                166

As shown in Chart 2, the average number of reportable conditions and material instances of
noncompliance was 1.8 per report for the first 90 audits—an average of 2.4 instances for the
first 30 audits, 0.9 for the second 30 audits, and 2.2 for the third 30 audits. Forty-one of the 90
reports had neither reportable conditions nor material instances of noncompliance.

        Chart 2: Average Number of Reportable Conditions and Material Instances of 

                           Noncompliance per Report Issued 



                                 Average Number of Reportable Conditions and

                                         Instances of Noncompliance


                           4.0

                           3.0      2.4
               Instances




                                                                     2.2
                                                                                    1.8
                           2.0
                                                  0.9
                           1.0

                           0.0
                                    1-30         31-60              61-90           1-90
                                                        Reports Issued




5
  Reportable conditions in internal control relate to significant deficiencies in the design or operation of
internal control that could adversely affect the recipient’s ability to record, process, summarize, and report
financial data.
6
  Material instances of noncompliance relate to noncompliance with agreement terms and applicable laws
and regulations that could have a direct and material effect on the fund accountability statement of the
organization.

                                                                                                            4
CONCLUSION 

This report provides the status and results of the first 90 financial audit reports of USAID/West
Bank and Gaza activities conducted in accordance with the statutory requirements of the
Consolidated Appropriations Acts of 2003, 2004, 2005, and 2006. We plan to periodically issue
status reports, which will report on cumulative and comparative results over time.




                                                                                               5
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/West Bank and Gaza provided additional helpful
information on the status of the program, including the status of recommendations, the status of
questioned costs, examples of questioned costs, and examples of reportable conditions in internal
control and material instances of noncompliance. For example, USAID/West Bank and Gaza
provided data that showed:

•	 For the third 30 audit reports that were released to the Mission, 23 of these reports included
   43 recommendations; 16 recommendations were related to questioned costs, and 27 were
   related to internal control and compliance issues.
•	 For the status of the questioned costs of $1,933,339 for the third 30 audit reports, $164,141
   were costs disallowed and collected from recipients, $23,169 were costs allowed by the
   Mission, and $1,746,029 were costs outstanding pending final determination.
•	 Examples of questioned costs included over billing, incorrect calculation of indirect costs,
   compliance with source and origin requirements, and lack of prior USAID approval of
   procurement actions.
•	 For the status of the 27 recommendations relating to internal control and compliance issues,
   in 19 cases the Mission agreed with the recommendations and took corrective actions, in 1
   case the Mission found that the contractor was in compliance with the agreement terms and
   applicable laws and regulations, and in 7 cases the Mission is in the process of making a
   management decision.
•	 Examples of reportable internal control conditions and material instances of noncompliance
   included improper compliance with source and origin requirements, noncompliance with
   Acquisition and Assistance Policy Directive 02-04, “Implementation of Executive Order
   13224—Executive Order on Terrorism Financing”, lack of contract provisions for sub-
   awards, and lack of cost sharing review of sub-awardees.

USAID/West Bank and Gaza said that based on the materiality of the questioned costs and the
general findings on internal controls and compliance, the risk level according to the audits
appears minimal. We neither agree nor disagree that the risk level appeared minimal.
Assessing risk needs to account for both internal and external factors, some being outside the
span of control of management. Examples of outside factors include significance and
sensitivity.

USAID/West Bank and Gaza said that the Mission was taking proper steps to ensure
compliance by its contractors and grantees. The Mission also said that it was taking timely
actions to ensure that management decisions were reached and that outstanding
recommendations were timely addressed and closed. We agree and appreciate the Mission’s
collaboration in ensuring that outstanding recommendations are timely addressed.




                                                                                               6
                                                                                              APPENDIX I


                        Summary of West Bank and Gaza First 90 Financial Audits

                                                                                                  Reportable
                                                                                                Conditions in
                                                                                               Internal Control
                                                                  Total                          and Material
                                                                Questioned    Total Costs        Instances of
#     Report Number                  Recipient                    Costs        Audited         Noncompliance

      Various - See
1-    footnote 1 on
30    page 2           Subtotal                                  $2,012,111     $50,490,616                  73
      Various - See
31-   footnote 2 on
60    page 2           Sub-total                                  $847,993      $84,367,802                  28
                       USAID Resources Managed by World
61    6-294-06-012-N   Vision Inc.                                      $0       $1,695,576                  0
                       USAID Resources Managed by Nathan-
62    6-294-06-013-N   MSI Group                                   $36,496         $916,761                  2
                       USAID Resources Managed by CH2M
63    6-294-06-014-N   Hill                                      $1,327,312     $17,790,552                  9
                       USAID Resources Managed by
64    6-294-06-015-N   Palestine for Credit and Development             $0       $2,228,356                  0
                       West Bank and Gaza's Emergency
65    6-294-06-017-N   Roads Rehabilitation Project Phase I             $0       $9,012,089                  3

                       Catholic Relief Services Jerusalem,
                       West bank, and Gaza, under USAID
66    6-294-06-018-N   award NOS.                                  $51,670       $3,863,723                  6
                       CH2Hill's Integrated Water Resources
67    6-294-06-019-N   (Phase II)                                  $26,392         $956,192                  5

                       Academy for Educational Development
                       "Support to local initiatives for Non-
68    6-294-07-001-N   Violent Conflict resolution"                     $0         $177,085                  1
                       Academy for Educational Development
69    6-294-07-002-N   "Higher Education Support Initiative"            $0         $906,377                  0

                       Financial Markets International
                       "Commercial Transparency, Capital
70    6-294-07-003-N   Market Initiative Program"                  $52,030         $623,865                  4
                       Financial Markets International
                       "Financial Markets Reform Program -
                       Phase II for USAID West Bank and
71    6-294-07-004-N   Gaza"                                        $7,515         $475,941                  3




                                                                                                         7
                                                                                             APPENDIX I 


                                                                                                 Reportable
                                                                                               Conditions in
                                                                                              Internal Control
                                                                  Total                         and Material
                                                                Questioned   Total Costs        Instances of
#    Report Number                   Recipient                    Costs       Audited         Noncompliance

                      American Near East Refugee Aid
                      Implemented by Israel Palestine Centre
72   6-294-07-005-N   for Research and Information                      $0        $187,679                  1
                      Ma'an Development Center Sub-Grant
73   6-294-07-006-N   under World Vision Cooperative                $4,589        $353,518                  0
                      Academy for Educational Development
74   6-294-07-007-N   "The Presidential Scholarship Program"        $5,130        $295,216                  2

                      An-Nuwei'meh Charitables Society's
                      Compliance with Grant Terms and
                      Conditions awarded by associates in
75   6-294-07-008-N   Rural Development Inc.                            $0        $248,697                  0

                      Beit Lahiya Development Association's
                      Compliance with Grant Terms and
                      Conditions Awarded by Associates in
76   6-294-07-009-N   Rural Development Inc.                            $0        $222,941                  0
                      Elderly Home Charitable Society's
77   6-294-07-010-N   Compliance                                        $0        $426,942                  0

                      Save the Children Cooperative
                      "Community Psychosocial Support
78   6-294-07-011-N   Program"                                          $0      $1,661,462                  0
                      Palestinian Early Childhood Educational
79   6-294-07-012-N   Program's Compliance                              $0        $221,451                  5

                      Save the Children Federation -
                      "Palestinian Infrastructure for needed
80   6-294-07-013-N   Employment Program"                               $0        $233,892                  0
81   6-294-07-014-N   Palestinian Trade Center                      $3,488        $606,901                  1

                      Save the Children Federation "Job
                      Opportunities Through development of
                      Small Scale Basic Community
82   6-294-07-015-N   Infrastructure Program"                      $28,022      $4,445,571                  1
                      Camp Dresser & McKee International
83   6-294-07-016-N   Inc.                                          $1,485      $3,251,796                  2
                      Camp Dresser & McKee International
84   6-294-07-017-N   Inc.                                        $230,241      $6,254,459                  3
                      Camp Dresser & McKee International
85   6-294-07-018-N   Inc.                                         $53,917      $1,733,799                  2




                                                                                                        8
                                                                                            APPENDIX I 


                                                                                                Reportable
                                                                                              Conditions in
                                                                                             Internal Control
                                                               Total                           and Material
                                                             Questioned    Total Costs         Instances of
#     Report Number                  Recipient                 Costs        Audited          Noncompliance
86   6-294-07-019-N   Intercontinental Constructors, LLC              $0       $2,943,014                   3
87   6-294-07-020-N   Arar General Contracting Company's              $0         $309,193                   2
88   6-294-07-021-N   IBM Corporation                             $6,574       $8,335,182                   2
89   6-294-07-022-N   Chemonics International Incorporated            $0         $379,785                   2
                      CH2MHill Integrated Water Resources
90   6-294-07-023-N   (Phase III)                                $98,478      $3,335,297                    6
                           Sub Totals (61-90 reports)         $1,933,339     $74,093,312                    65


                      Grand Total                             $4,793,443    $208,951,730                   166




                                                                                                       9
                                                                                    APPENDIX II 



MANAGEMENT COMMENTS 




DATE:          March 27, 2007

TO:            David H. Pritchard, Regional Inspector General / Cairo

FROM:          Howard Sumka, Mission Director / USAID West Bank and Gaza /s

SUBJECT:       Information on status and results of the first 90 financial audits of USAID West
               Bank and Gaza activities in accordance with the statutory requirements of the
               Appropriations Acts of 2003, 2004, 2005 and 2006. (Report No. 6-294-07-00x-S)

Reference:     Pritchard / Sumka memorandum dated 3/19/07


USAID West Bank and Gaza Mission would like to thank the Regional Inspector General / Cairo
for their draft status report regarding the results of the first 90 financial audits of USAID West
Bank and Gaza activities. We have reviewed the subject report and have the following
comments with regard to the additional 30 audits covered by this report:

Of the 30 audit reports that were released to the Mission since the last status report, 23 reports
included 43 recommendations; 16 recommendations were related to questioned costs and 27
were related to internal control and compliance issues. 17 recommendations have been closed
by M/CFO/APC. A management decision has been reached with RIG/C for 13
recommendations which are pending final action. The Mission is in the process of drafting the
Contracting Officer’s determination for the remaining 13 recommendations.

Regarding questioned costs in the total amount of $1,933,339, the status of these costs is as
follows:

                        61 - 90

                         164,141     Costs disallowed and collected from recipients
                          23,169     Costs allowed by the Contracting / Agreement Officer
                       1,746,029     Costs outstanding pending the Mission reaching a
                                     management decision with RIG/C
                     $ 1,933,339     Total




                                                                                               10
                                                                                     APPENDIX II


Examples of questioned costs (due to lack of documentation or ineligibility) included over billing,
compliance with source and origin requirements, and lack of prior USAID approval of
procurement actions.

The status of recommendations relating to internal control and compliance issues is as follows:

                19 	 Contracting/Agreement Officer agreed with the recommendations and
                     corrective action has already been taken or is in process.
                 1 	 Contracting/Agreement Officer found that the contractor was in
                     compliance with the agreement terms and/or applicable laws and
                     regulations and there were no internal control deficiencies.
                 7 	 Contracting/Agreement Officer is in the process of making a management
                     decision.
                27	 Total Recommendations

Examples of reportable internal control conditions and material instances of noncompliance
included improper compliance with source and origin requirements, noncompliance with AAPD
02-04 “Implementation of E.O.13224 – Executive Order on Terrorism Financing”, weak
accounting system and controls, and lack of monitoring of sub-recipients.

Based on the relative immateriality of the questioned costs and the general findings on internal
controls and compliance, we assess the risk level as low. Nevertheless, the Mission is taking all
appropriate measures to ensure compliance by its contractors and grantees and follow up to
ensure that management decisions are agreed with RIG/C and recommendations are closed
within targeted deadlines.




                                                                                                11
